WAIVER

Supreme Court, U.S.

FILED

MAR 0 1 2021

Supreme Court of the United Stat

SOFFICE OF THE CLERK

No. 204101

Tanieshia Harden
(Petitioner)

v.

Comcast Corporation
(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.
Please check the appropriate boxes:
91 Please enter my appearance as Counsel of Record for all respondents.
There are multiple respondents, and I do not represent all respondents. Please. enter my
appearance as Counsel of Record for the following respondent(s):

I am a member of the Bar of the Supreme Court of the United States.
gf

I am not presently a member of the Bar of this Court. Should a response be requested,
the response will be filed by a Bar member.
Signature
Date: 2/2 /2021

(Type or print) Name Jessica D. Causgrove
0 Mr.
0 Ms.

l Mrs.

0 Miss

Firm Fisher & Phillips, LLP
Address

10 S. Wacker Drive, Suite 3450

City & State Chicago, II

Zip 60606

Phone 312-260-4758
SEND A COPY OF THIS FORM TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
Cc: Tanieshia Harden / Petitioner

RECEIVED
MAR - 3 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

Obtain status of case on the docket. By phone at 202-479-3034 or via the internet at
http://www.supremecourtus.gov. Have the Supreme Court docket number available.

